gpa E-Mail Address: 1115 H Street, N.E.
Eee briefs@wilsonepes.com Washington, D.C. 20002

Wk TG Web Site: Tel (202) 789-0096

exe) www.wilsonepes.com Fax (202) 842-4896

No. 20-1501

ROMAN CATHOLIC DIOCESE OF ALBANY, ET AL.,

Petitioners,
v.

LinDA A, LACEWELL, SUPERINTENDENT, NEW YORK
STATE DEPARTMENT OF FINANCIAL SERVICES, ET AL.,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on May 26, 2021, three (3) copies of the BRIEF FOR AMICI CURIAE
THE CHURCH OF JESUS CHRIST OF LATTER-DAY SAINTS; THE UNITED STATES
CONFERENCE OF CATHOLIC BISHOPS; ETHICS AND RELIGIOUS LIBERTY
COMMISSION OF THE SOUTHERN BAPTIST CONVENTION; THE LUTHERAN CHURCH-
MISSOURI SYNOD; THE GENERAL CONFERENCE OF THE SEVENTH-DAY ADVENTISTS,
THE JURISDICTION OF THE ARMED FORCES AND CHAPLAINCY OF THE ANGLICAN
CHURCH IN NORTH AMERICA IN SUPPORT OF PETITIONERS in the above-captioned case
were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

NOEL JOHN FRANCISCO BARBARA DALE UNDERWOOD
JONES DAY Solicitor General
§1 Louisiana Avenue, NW OFFICE OF THE ATTORNEY GENERAL
Washington, DC 20001 28 Liberty Street
(202) 879-3939 New York, NY 10005-1400
(212) 416-8016

Counsel for Roman Catholic
Diocese of Albany, et al. Counsel for Linda A. Lacewell; NY State
Department of Financial Services

The following email addresses have also been served electronically:
sgunnarson@kmclaw.com

njfrancisco@jonesday.com

Barbara.underwood@ag.ny.gov < W i

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
1115 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

_

COLIN CASK¥Y HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

    
 
